27

err.

No.

filed
JAN 2 6 2021
^aggJHE^CLERK
IN THE

SUPREME COURT OF THE UNITED STATES

Susanne StGphanis Nikola Kynast_PETITIONER
(Your Name)
vs.

State of Florida

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

DISTRICT COURT OF APPEAL OF FLORIDA THIRD DISTRICT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Susanne Stephanie Nikola Kynast
(Your Name)
5409 Overseas Highway Box #59
(Address)
Marathon, FL 33050
(City, State, Zip Code)

305-417-2206
(Phone Number)

QUESTION(S) PRESENTED
Is Petitioner entitled to the return of property taken as evidence without a warrant and held in
custodia legis subsequent to a motion to suppress in regards to that evidence having been granted by
the trial court on the grounds that the search resulting in the seizure of said evidence was illegal,
with the motion to suppress specifically having demanded the return of the property?
Is Petitioner entitled to the return of property taken as evidence and held in custodia legis
subsequent to the case having been terminated by a nolle prosequi, it being the Petitioner's personal
property, not the fruit of criminal activity, and it not being held as evidence in Petitioner's or in any
related case, and Petitioner having filed a motion for the return?
Is Petitioner entitled to an evidentiary hearing in the trial court if the property is not returned, and if
the trial court refuses to hear such a motion to the issuance of a writ of mandamus directing the trial
judge to exercise jurisdiction and order the return of the property or to entertain motion for same?
Is the existence of a Disposition of Case and Evidence Memorandum directing the evidence
custodian to return the property which is ambiguous and unclear in nature regarding the exact items
to be returned sufficient to supersede Petitioner's rights to a hearing for the return of her property if
Petitioner has been able to prove through law enforcement property receipts from the time of
seizure and a release for returned property / evidence form that it has not resulted in the return of all
or even most of the property entered into custodia legis?
Is Petitioner entitled to an evidentiary hearing if the State and evidence custodian make claims
about the status of the property which Petitioner has brought into question by valid timely
argument?
Is the fact that the evidence custodian has not returned Petitioner's property in response to a
Disposition of Case and Evidence Memorandum and has not provided any evidence to the court in
regards to the missing property (non-performance in response to a lawful order) sufficient proof that
the property has ceased to exist and therefore grounds for Petitioner's petition for writ of mandamus
to be denied as moot?
If the evidence custodian does not comply with a Disposition of Case and Evidence Memorandum
does this permit Petitioner to petition the court by motion to intervene to achieve compliance?
If the evidence custodian were to make a claim of the property having ceased to exist would the
evidence custodian be required to give a detailed accounting of the circumstances of loss for each
item in order for the court to determine the veracity of that claim and to enable Petitioner to
possibly take civil action against the evidence custodian?
If the evidence custodian were to make a claim that it can no longer locate property entered into
custodia legis is it the duty of the trial court which took possession of the property to initiate an
investigation and elicit testimony from the evidence custodian in order to locate the property?
If the evidence custodian has disposed of property it was holding in custodia legis without the
authority of the court by means which resulted in the continued existence of the property such as
sale, donation, adoption, or any other temporary or permanent custody arrangement, is it the
responsibility of the court to compel the evidence custodian to retrieve such property so it can be
restored to Petitioner?

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
The Honorable Judge Ruth Becker, County Judge of Monroe County, Sixteenth Judicial Circuit,
Marathon Courthouse, 3117 Overseas Highway, Marathon, Florida 33050 (party to the Petition for
Writ of Mandamus, Fla. R. App. P. 9.100 (e)(2).

RELATED CASES

• Kynast v. Florida, No. 3D 19-0640, District Court of Appeals of the State of Florida, Third
District. Per Curiam Affirmed Sep. 16, 2020, Rehearing Denied Oct. 28, 2020.
• Kynast v. Florida, No. 18-CA-375-M, Circuit Court of Appeals of the Sixteenth Judicial Circuit
of the State of Florida, in and for Monroe County. Order Denying Amended Petition for Writ of
Mandamus entered Feb. 12, 2019.
• Florida v. Kynast, No. 18-AP-4-M, Circuit Court of Appeals of the Sixteenth Judicial Circuit of
the State of Florida, in and for Monroe County. Closed July 31, 2018.
• Florida v. Kynast, No. 16-MM-438-A-M, County Court of the Sixteenth Judicial Circuit of the
State of Florida, in and for Monroe County. Nolle Prosequi entered July 31, 2018.
• Florida Keys Society for the Prevention of Cruelty to Animals (FKSPCA) v. Kynast and Geisel,
No. 16-CC-79-M, County Court of the Sixteenth Judicial Circuit of the State of Florida, in and
for Monroe County. Order Granting Amended Voluntary Dismissal entered July 30, 2018.
• Florida v. Geisel, No. 16-CF-108-A-M, Circuit Court of the Sixteenth Judicial Circuit of the
State of Florida, in and for Monroe County. State "No Actions" all charges pertaining to search
and seizure, Aug 26, 2019.

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

5

REASONS FOR GRANTING THE WRIT

24

CONCLUSION

33

INDEX TO APPENDICES
APPENDIX A Decision of State District Court of Appeals
APPENDIX B Decision of State Circuit Court of Appeals
APPENDIX C Order of State District Court of Appeals Denying Rehearing
APPENDIX D Order of State Circuit Court of Appeals Denying Reconsideration
APPENDIX E Trial Court Motion Minutes Denying Motion for Return of Evidence
APPENDIX F Trial Court Nolle Prosequi
APPENDIX G County Court Order Granting Voluntary Dismissal
APPENDIX H Trial Court Order Granting Defendant's Motion to Dismiss
APPENDIX I Trial Court Motion to Suppress
APPENDIX J Law Enforcement Property Receipts
APPENDIX K Law Enforcement Release for Returned Property
APPENDIX L Request to Return Property - Law Enforcement
APPENDIX M Request to Return Property - Evidence Custodian

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Adams v. Burns, 172 So. 75 (Fla. 1936)

12, 22

Almeda v. State, 959 So. 2d 806, 808 (Fla. 2d DCA 2007)

26, 30

Bennett v. Bennett, 655 So. 2d 109 (Fla. 1st DCA 1995)....

6, 12

Brown v. State, 613 So. 2d 569 (Fla. 2d DCA 1993).........

23, 26, 30

Coon v. State, 585 So. 2d 1079 (Fla. 1st DCA 1991).........

19,21,22, 23, 26, 28,31

County ofPasco v. Riehl, 635 So. 2d 17 (Fla. 1994).........

20

Dehoffv. Imeson, 15 So. 2d 258 (Fla. 1943)......................

32

Garmire v. Red Lake, 265 So. 2d 2 (Fla. 1972)..................

12, 19,21,22, 23, 26,31

Helmy v. Swigert, 662 So. 2d 395 (Fla. 5th DCA 1995)....

7, 12, 19,21,22, 29

Hilton v. State, 961 So. 2d 284 (Fla. 2007)........................

8

Hornblowerv. State, 351 So. 2d 716 (Fla. 1977)...............

7, 9, 10

Moore v. State, 533 So. 2d 924 (Fla. 2d DCA 1988)..........

23, 26

Sawyer v. Gable, 400 So. 2d 992 (Fla. 3d DCA 1981).......

15, 16, 19, 23, 26, 27, 28

STATUTES AND RULES

PAGE NUMBER

Fla. R. App. P. 9.030 (c) (3)

14, 18

Fla. R. App. P. 9.100(e)

14

Fla. R. App. P.9.100(f)(2)

14

Fla. R. App. P. 9.100 (k)

16

Fla. R. App. P. 9.200 (a) (2)

18

Fla. R. App. P. 9.220 (c)

18

§ 924.19, Fla. Stat.

10

§ 933.14, Fla. Stat.

3, 15, 23,26, 27

Fed. R. Crim. P. 41(g) [formerly 41(e)]

3, 15, 16, 18, 28

OTHER

PAGE NUMBER

U.S. Const., amend. IV.

3, 7, 8, 24, 25

U.S. Const., amend. V.

3, 24, 25

U.S. Const., amend. XIV.

3, 24, 25

t,

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
I or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
^ For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix _A___ to the petition and is
[ ] reported at
5 or,
[ ] has been designated for publication but is not yet reported; or,
^ is unpublished.
Circuit Court of the 16th Judicial Cicuit of the State of Florida
The opinion of the in and for Monroe County
court
appears at Appendix _B___ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
^ is unpublished.
1.

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was______________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ___________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

^ For cases from state courts:
The date on which the highest state court decided my case was Sept. 16, 2020
A copy of that decision appears at Appendix A
A timely petition for rehearing was thereafter denied on the following date:
net ?b ?n?n_____
—, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including
(date) on
(date) in
Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Constitution of the United States of America 1789 (rev. 1992) Amendment IV
“The right of the people to be secure in their persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not be violated, and no Warrants shall issue, but upon
probable cause, supported by Oath or affirmation, and particularly describing the place to be
searched, and the person or things to be seized.”
Constitution of the United States of America 1789 (rev. 1992) Amendment V
“No person shall be held to answer for a capital, or otherwise infamous crime, unless on a
presentment or indictment of a Grand Jury, except in cases arising in the land or naval forces, or in
the Militia, when in actual service in time of War or public danger; nor shall any person be subject
for the same offence to be twice put in jeopardy of life or limb; nor shall be compelled in any
criminal case to be a witness against himself, nor be deprived of life, liberty, or property, without
due process of law; nor shall private property be taken for public use, without just compensation.”
Constitution of the United States of America 1789 (rev. 1992) Amendment XIV
“All persons born or naturalized in the United States and subject to the jurisdiction thereof, are
citizens of the United States and of the State wherein they reside. No State shall make or enforce
any law which shall abridge the privileges or immunities of citizens of the United States; nor shall
and State deprive any person of life, liberty, or property, without due process of law; nor deny to
any person within its jurisdiction the equal protection of the laws.”
Federal Rule of Criminal Procedure Rule 41(g)
“MOTION TO RETURN PROPERTY. A person aggrieved by an unlawful search and seizure of
property or by the deprivation of property may move for the property's return. The motion must be
filed in the district where the property was seized. The court must receive evidence on any factual
issue necessary to decide the motion. If it grants the motion, the court must return the property to
the movant, but may impose reasonable conditions to protect access to the property and its use in
later proceedings.”
[Formerly Rule 41(e)"Motion for Return of Property. A person aggrieved by an unlawful search and
seizure may move the district court for the district in which the property was seized for the return of
the property on the ground that he is entitled to lawful possession of the property which was
illegally seized. The judge shall receive evidence on any issue of fact necessary to the decision of
the motion. If the motion is granted the property shall be restored and it shall not be admissible in
evidence at any hearing or trial. If a motion for return of property is made or comes on for hearing
in the district of trial after an indictment or information is filed, it shall be treated also as a motion
to suppress under Rule 12.]
Section 933.14, Florida Statutes (1989)
“Return of property taken under search warrant. (1) If it appears to the judge before whom the
warrant is returned that the property or papers taken are not the same as that described in the
warrant, or that there is no probable cause for believing the existence of the grounds upon which the
warrant was issues, or if it appears to the judge before whom any property is returned that the
property was secured by an “unreasonable” search, the judge may order a return of the property
taken; provided, however, that in no instance shall contraband such as slot machines, gambling
tables, lottery tickets, tally sheets, rundown sheets, or other gambling devices, paraphernalia, or
equipment, or narcotic drugs, obscene prints and literature be returned to anyone claiming and
interest therein, it being the specific intent of the Legislature that no one has any property rights
subject to be protected by any constitutional provision in such contraband; provided, further, that
3

the claimant of said contraband may upon sworn petition and proof submitted by him or her in the
circuit court of the county where seized, show that said contraband articles so seized were held,
used, or possessed in a lawful manner, for a lawful purpose, and in a lawful place, the burden of
proof in all cases being upon the claimant. The sworn affidavit or complaint upon which the search
warrant was issued or the testimony of the officers showing probable cause to search without a
warrant or incident to a legal arrest, and the finding of such slot machines, gambling tables, lottery
tickets, tally sheets, rundown sheets, scratch sheets, or other gambling devices, paraphernalia, and
equipment, including money used in gambling or in furtherance of gambling, or narcotic drugs,
obscene prints and literature, or any of them, shall constitute prima facie evidence of the illegal
possession of such contraband and the burden shall be upon the claimant for the return thereof, to
show that such contraband was lawfully acquired, possessed, held, and used.”

4

STATEMENT OF THE CASE
Petitioner Susanne Kynast was taken into protective custody pursuant to a Baker Act on
7/5/2016 by deputies from the Monroe County Sheriffs Office (herein after referred to as “MCSO”)
and officers from the Florida Fish and Wildlife Conservation Commission (herein after referred to
as “FWC”). The Baker Act was initiated based on an erroneous report made by Petitioner's husband
who is disabled with a traumatic brain injury and suffers from perception, communication, and
emotional deficits and had misinterpreted Petitioner's reaction to the sudden cancer death of her
dog. It was not supported by the initially responding officers (Record pg. 505) and not upheld be the
receiving facility (Record pg. 484). At that time her dog Slinky was seized and logged into evidence
by FWC officer Kyle Plussa. (Appendix J) Despite assuring Petitioner that they would do so,
MCSO failed to notify Petitioner's designated animal caretaker of her custody and the need to care
for her animals. The following day (7/6/2016), 18 hours after their initial entry, while Petitioner was
still at the Guidance Care Center awaiting her release which was allegedly delayed due to low
holiday staffing levels, FWC and MCSO returned to her home without a warrant and seized the
following animals from there: 4 cats (a 5th cat was left behind and seized on 7/11/2016), 8 long-term
pet iguanas, 1 iguana which she had rescued from the road after it had been hit by a vehicle, and 5
pet freshwater turtles, claiming that they were without food, water, and shelter, statements which
were contradicted by multiple videos taken on scene (Record pg. 474) Those were also logged into
evidence by FWC officer Kyle Plussa along with approximately 1,000 dollars worth of custom
caging, carriers, and accessories (Appendix J). Petitioner was charged with numerous fish and
wildlife violations and criminal charges relating to an alleged failure to care for her animals in the
County Court of the Sixteenth Judicial Circuit in and for Monroe County, Florida in case number
2016-MM-438-A-M. On 7/7/2016 2 more dogs were seized from her disabled husband's vehicle
during his arrest on charges of threatening officers in an attempt to reclaim the animals. This seizure
occurred in spite of the fact that he had designated a person to retrieve them and that that person as

5

well as a second designated caretaker showed up at the scene to do so but were refused access to the
dogs (Record pg. 347 - 349), negating any claims that the dogs were left without care and taken for
safekeeping. They were also logged into evidence by FWC officer Kyle Plussa in Petitioner's case
(Appendix J). All evidence receipts stipulate that the animals be held as evidence for trial
(Appendix J). All pets taken from Petitioner's home were assessed by a veterinarian immediately
following the seizure and were except for the iguana which had been hit by a vehicle and had
predictable injuries which were healing found to be healthy as documented in veterinary records
provided to Petitioner in her discovery. They were transferred to animal control officer Hugh Smith
(herein after referred to as “ACO Smith”) to be held in custodia legis by the Florida Keys Society
for the Prevention of Cruelty to Animals (herein after referred to as “FKSPCA”) (Appendix J). On
8/12/2016 the FKSPCA filed a “Verified Petition for Custody, Control, and Disposition of Animals
Pursuant to Fla. Stat. 828.073 and Monroe County Code Sec. 4-47”, 2016-CC-79-M against
Petitioner and her husband in the County Court of the Sixteenth Judicial Circuit in and for Monroe
County, Florida under an incorrect case number (Record pg. 570). It was corrected with the
appropriate case number and sent out to be served by 10/27/2016 (Record pg. 584), after the
FKSPCA attempted to have a hearing on the matter on 10/26/2016 and were advised in court that
they were required by statute to have the Petition served on Petitioner and her husband (Record pg.
581). This petition states that the FKSPCA has custody of all 21 seized animals (the 22nd one
already being deceased at the time of filing). (Record pg. 573) It names Petitioner and her husband
as joint owners of all of them (Record pg. 573) which is in accordance with Bennett v. Bennett, 655
So.2d 109 (Fla. 1st DCA 1995) (animals as property in the State of Florida). It also states that the
FKSPCA housed the animals at an undisclosed “specially outfitted sheltering facility” supposedly
to protect them from Petitioners. (Record pg. 574) Petitioner answered in the civil case in part that
the FKSPCA lacked the legal standing to file the petition since they were holding the animals in
custodia legis as evidence in a criminal trial and this was not a humane society seizure. The

6

difference is discussed in detail in Helmy v. Swigert, 662 So. 2d 395 (Fla. 5th DCA 1995) which
differentiates between a humane society seizure where the humane society “acted independently
and seized [the animal] pursuant to a civil complaint based on animal cruelty [where] the right to
possess [the animal] should be resolved by complying with the procedure set forth in Fla. Stat.
828.073”, and instances where the animal is seized by law enforcement as evidence in a criminal
case and is turned over to the humane society to be held for the state as evidence, in which case the
society is the state’s agent and is holding the animal in custodia legis. For property held in custodia
legis the trial court having jurisdiction over the criminal charges has to determine whether a valid
basis exists to retain the property. The FKSPCA de facto abandoned the civil case after Petitioner
filed a number of defensive motions (Record pg. 363, 568 - 569) followed by interrogatories
(Record pg. 377). On 7/5/2017 the state dropped all the wildlife charges in the criminal case,
agreeing with a motion filed by Petitioner that they had been in error since the animals seized were
in fact pets, not wildlife and therefore not subject to captive wildlife statutes. In the criminal case
Petitioner filed a motion to suppress all evidence and find the seizure of her animals illegal.
(APPENDIX I) This motion and the identical section of the defensive motions in the civil case
raised the federal prohibition against unreasonable search and seizure and the consequent demand
for the return of the seized items sought to be reviewed in this case in the following manner:
“The Fourth Amendment of the Constitution protects against warrantless search and seizure
except in a very narrowly defined set of circumstances falling under the emergency
exception to the warrant requirement.” (Record pg. 463)
“As stated by the United States Supreme Court in Johnson v. United States 333 U.S. 10, 68
S. Ct. 367, 92 L. Ed. 436 (1948): The point of the Fourth Amendment, which often is not
grasped by zealous officers, is not that it denies law enforcement the support of the usual
inferences which reasonable men draw from evidence. Its protection consists in requiring
that those inferences be drawn by a neutral and detached magistrate instead of being judged
by the officer engaged in the often competitive enterprise of ferreting out crime. Any
assumption that evidence sufficient to support a magistrate’s disinterested determination to
issue a search warrant will justify the officers in making a search without a warrant would
reduce the Amendment to a nullity and leave the people’s homes secure only in the
discretion of police officers.” (Hornblower v. State, Supreme Court of Florida Oct. 27, 1977
351 So. 2d 716).” (Record pg. 466)

7

“Respondents therefore respectfully request that this Honorable Court find that the search
and seizure conducted on Susanne Kynast’s vessel and residence FL 6272NW was not
reasonable and therefore prohibited by the Fourth Amendment, and that this Honorable
Court therefore order all evidence suppressed and all seized items - physical property and
animals — returned immediately.” (Record pg. 468)
Petitioner based her argument on the lack of a warrant, the fact that the officers had stated a
previous intent to search and arrest while executing a community caretaker function, that they had
artificially created an exigency by removing her from her home and not notifying the animal
caretaker she had appointed, and the fact that her Baker Act was not sustained by the receiving
facility. (Record pg. 500 - 536) During the first suppression hearing on 2/21/18 FWC Officer Kyle
Plussa stated under oath that the seized pet iguanas were at that time “located at an appropriate
facility”.1 In her closing argument Petitioner continued to raise the federal prohibition against
unreasonable search and seizure:
"The right of the people to be secure in their persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not be violated, and no Warrants shall issue, but
upon probable cause, supported by Oath or affirmation, and particularly describing the place
to be searched, and persons or things to be seized." U.S. Const., Arndt. 4.
“When a search or seizure is conducted without a warrant, the government bears the burden
of demonstrating that the search or seizure was reasonable. See United States v. Johnson, 63
F.3d 242, 245 (3d Cir.l995).”i/i7to« v. State, 961 So. 2d 284 (Fla. 2007)
“The Fourth Amendment to the United States Constitution is an expression of our founding
fathers' uneasiness with the potential omnipotence of a federal government. It reflects the
notion that an individual can never enjoy the tranquility which he deserves if the government
is free to tamper with his expectations of privacy through arbitrary searches. Consequently,
the central theme of the Fourth Amendment is its prohibition against general searches.
Practices like random entries into people's homes or random searches of people walking the
streets, to acquire information or obtain evidence are repulsive to our concept of a
democratic society. See Wolfv. Colorado, 338 U.S. 25, 69 S.Ct. 1359, 93 L.Ed. 1782 (1949).
In essence, the Fourth Amendment forbids those occurrences and evinces the axiom that
privacy is not a gratuity which we hold at the whim of our government. Only when there is a
special governmental need that can be stated with particularity, will we allow the
government to intrude on an individual's privacy. To implement this principle, the Supreme
Court of the United States has mandated that warrantless searches "are per se unreasonable
under the Fourth Amendment — subject only to a few specifically established and welldelineated exceptions." Katzv. United States, 389 U.S. 347, 357, 88 S.Ct. 507, 514, 19
L.Ed.2d 576 (1967). Accord, United States v. United States District Court, 407 U.S. 297,
317, 92 S.Ct. 2125, 32 L.Ed.2d 752 (1972). These exceptions have been "jealously and
1

Defendant has very limited financial means due to the cost of this case and her support for her disabled husband and
is financially unable to pay for a transcript of that hearing.

8

carefully drawn," Jones v. United States, 357 U.S. 493, 499, 78 S.Ct. 1253, 2 L.Ed.2d 1514
(1958), and the burden is upon the State to demonstrate that the procurement of a warrant
was not feasible because "the exigencies of the situation made that course imperative."
McDonald v. United States, 335 U.S. 451, 456, 69 S.Ct. 191, 93 L.Ed. 153 (1948). See also
Coolidge v. New Hampshire, 403 U.S. 443, 445, 91 S.Ct. 2022, 29 L.Ed.2d 564 (1971);
United States v. Jeffers, 342 U.S. 48, 51, 72 S.Ct. 93, 96 L.Ed. 59 (1951); Vale v. Louisiana,
399 U.S. 30, 34, 90 S.Ct. 1969, 26 L.Ed.2d 409 (1970); Johnson v. United States, 333 U.S.
10, 68 S.Ct. 367, 92 L.Ed. 436 (1948); Agnello v. United States, 269 U.S. 20, 46 S.Ct. 4, 70
L.Ed. 145 (1925); Root v. Gauper, 438 F.2d 361, 364 (8th Cir. 1971); Shepard v. State, 319
So.2d 127 (Fla. 1st DCA 1975); Hannigan v. State,307 So.2d 850 (Fla. 1st DCA 1975). ”
Hornblower v. State, 351 So. 2d 716 (Fla. 1977)
“the Fourth Amendment establishes a procedure for effectuating the rights of individuals —
the deliberation of a dispassionate and detached magistrate who initially makes an
independent determination as to probable cause before a warrant may issue. Only under
special circumstances is it unnecessary to follow this procedure. Were a magistrate not
interposed between the policeman and the individual before a person's privacy was
threatened, that precious equilibrium between individual privacy and orderly society would
be disrupted. As stated by the United States Supreme Court in Johnson v. United States,
supra: The point of the Fourth Amendment, which often is not grasped by zealous officers, is
not that it denies law enforcement the support of the usual inferences which reasonable men
draw from evidence. Its protection consists in requiring that those inferences be drawn by a
neutral and detached magistrate instead of being judged by the officer engaged in the often
competitive enterprise of ferreting out crime. Any assumption that evidence sufficient to
support a magistrate's disinterested determination to issue a search warrant will justify the
officers in making a search without a warrant would reduce the Amendment to a nullity and
leave the people's homes secure only in the discretion of police officers.” Hornblower v.
State, 351 So. 2d 716 (Fla. 1977)
“The United States Supreme Court has repeatedly identified “physical entry of the home [as]
the chief evil against which the wording of the Fourth Amendment is directed.” Payton v.
New York, 445 U.S. 573, 585, 100 S.Ct. 1371, 63 L.Ed.2d 639 (1980) (quoting United States
v. United States District Court, 407 U.S. 297, 313, 92 S.Ct. 2125, 32 L.Ed.2d 752 (1972)).
Throughout the Supreme Court's caselaw, “the Fourth Amendment has drawn a firm line at
the entrance to the house. Absent exigent circumstances, that threshold may not reasonably
be crossed without a warrant.” Id. at 590, 100 S.Ct. 1371. Riggs v. State 918 So2d 274 (Fla
2005)”
(Record pg. 502 - 503)
“The entry into Defendant's private home and subsequent search and seizure on 7/5 was
illegal because the legal requirements allowing a warrantless entry into a home were not
met.” (Record pg. 505)
“The entry into Defendant's home and subsequent search and seizure on 7/5 was illegal
because if warrantless entry is made under the emergency exception to the warrant
requirement, officers must not enter with an accompanying intent to search or arrest.”
(Record pg. 515)
“In his testimony, the officer acknowledged that he intended to enter and search the trailer
before he ever approached the mobile home. To sustain respondent's argument would be to
9

endorse the precise kind of conduct which the Fourth Amendment seeks to proscribe. [...]
Additionally, the "emergency exception" permits police to enter and investigate private
premises to preserve life, property, or render first aid, provided they do not enter with an
accompanying intent either to arrest or search, Johnson v. United States, supra; United
States v. Barone, 330 F.2d 543 (2d Cir.1964), cert. Denied, 377 U.S. 1004, 84 S.Ct. 1940, 12
L.Ed.2d 1053 (1964). Hornblowerv. State, 351 So. 2d 716 (Fla. 1977)” (Record pg. 515)
“All subsequent searches, investigations, and seizures at Defendant's home were
unconstitutional as well since no warrant was ever obtained.” (Record pg. 534)
The motion was granted on 5/4/2018 by the Honorable Judge Ruth Becker (Record pg. 537). The
State appealed on 5/15/2018 (Case Number 18-AP-4-M) (Appendix H) and neither the seized
animals nor the seized property was returned. Petitioner immediately filed a Emergency Motion for
the Return of Seized Property (Animals) based on § 924.19, Fla. Stat. which states in relevant part
"An appeal by the state shall not stay the operation of an order in favor of the defendant." Petitioner
demanded the return of her seized animals and property based on the Fourth Amendment as sought
from this court in the following manner:
“1. The Honorable Judge Becker granted Defendant's motion to suppress on 5/4/2018. This
motion applied in part specifically to "animals seized from the vessel". The motion pertained
to "All iguanas, cats, turtles, dogs, and other animals found and illegally seized." and the text
states in relevant part (f) "Respondents therefore respectfully request that this Honorable
Court find that the search and seizure conducted on Susanne Kynast's vessel and residence
FL 6272NW was not reasonable and therefore prohibited by the Fourth Amendment, and
that this Honorable Court therefore order all evidence suppressed and all seized items physical property and animals - returned immediately." 2.The State appealed the order on
5/10/2018. 3. In case of an appeal by the State, Fla. Stat. 924.19 applies which states in
relevant part "An appeal by the state shall not stay the operation of an order in favor of the
defendant." The order validates Defendant's claim that the warrantless seizure of Defendant's
animals was against the law. Its operation is therefore the immediate restoration of those
animals to their rightful owner. “ (Record pg. 540)
On 7/30/18 the FKSPCA filed a notice of voluntary dismissal of their civil case (hereafter referred
to as “NVD”) which reads in relevant part:
"Respondents’ animals, of which Petitioner has had custody, are listed as evidence in the
misdemeanor case styled: State of Florida v. Susanne Kynast, Case No.: MM-M-16-438; as
such, this instant action which Petitions for Custody, Control and Disposition of Animals
pursuant to F.S. 828.073 and Monroe County Code 4-47 is moot as the FKSPCA has no
authority to release Respondents’ animals. Custody and Disposition of the animals will be in
accordance with the resolution and disposition of Case MM-M-16-438." (Record pg. 594 597)

10

The Honorable Judge Becker issued an Order granting the NVD on 7/30/2018 (Appendix G). On
7/31/18 Petitioner voluntarily dismissed the appeal (Record pg. 452) and a nolle prosequi was
entered in case number 2016-MM-438-AM (Appendix F). Petitioner paid 4,000 dollars to the
FKSPCA for the care of all of her animals. On 7/25/18 the State issued a Disposition of Case and
Evidence Memorandum which states in part “Release animals & any items (cages/watering
dishes/etc) currently being held @ FKSPCA.” (Record pg. 316), and is unnecessarily vague by
arguably limiting the return of property specifically to that stored at that specific location, the
FKSPCA building, at that specific date. The FKSPCA is the evidence custodian as per the FWC
property receipts (Record pg. 185- 189), and admits to having had custody of the animals (Record
pg. 108, 594) but per their own admission in the Verified Petition for Custody, Control, and
Disposition (Record pg. 574), their statements made to Petitioner, veterinary/boarding records in the
discovery, and FWC Officer Plussa's testimony during the first suppression hearing (Initial Appeal
Brief, pg. 42) they did in fact specifically not hold the animals at the FKSPCA but rather placed
them in “a specially outfitted sheltering facility, whose location is undisclosed” (Record pg. 574), at
Marathon Veterinary Hospital, at Aquarium Encounters of the Florida Keys, and with fosters. When
Petitioner presented herself at the FKSPCA on 7/26/18 in the presence of the FWC property officer
she was told that only the following animals were available to her: 3 turtles, 4 cats, and 1 dog. This
is proven by the FWC Release of Returned Property / Evidence from 7/26/18, which lists turtles,
cats, and 1 dog, and specifically nothing else. (APPENDIX K) Petitioner was advised in the
presence of her attorney William Heffeman that the numbers in the form for the cats and turtles
were not filled in since the FWC was unsure how many of each would be returned. Petitioner
picked up 4 cats and dog Slinky, and 2 turtles (the third promised turtle was allegedly no longer
available to her). The FKSPCA also provided 4 transport crates (not her own, 3 of which were
damaged to the point of being barely usable, at a total value of approximately 30 dollars) to
Petitioner. The FKSPCA had previously provided documented proof of the death of one iguana in

11

their custody and had requested authorization for the medically necessary euthanasia of a second
one which Petitioner had granted. The FKSPCA refused to release the remaining 2 dogs Chrissy
and Dozer but claimed that they were alive and well. No consistent or verifiable claims were made
about the missing 3 turtles, 7 iguanas, cat, and valuable caging and accessories seized. As per the
FWC property receipts (APPENDIX J) the animals were transferred into the custody of the
FKSPCA as evidence to be held for trial. As such they were being held in custodia legis see Helmy
v. Swigert, 662 So. 2d 395 (Fla. 5th DCA 1995) (Initial Brief pg. 3 - 4), items held in custodia legis
are “confiscated temporarily for evidentiary purposes” Garmire v. Red Lake, 265 So. 2d 2 (Fla.
1972). Animals are physical property in the State of Florida. Bennett v. Bennett, 655 So. 2d 109
(Fla. 1st DCA 1995). “Property once placed in custodia legis will remain there, by operation of law,
until it is withdrawn by order of a competent court.” Adams v. Burns, 172 So. 75 (Fla. 1936) No
court orders withdrawing the animals or property exist in the case and no documentation was
provided to indicate that the missing animals no longer existed and there is no reasonable
expectation that they would not. When the first iguana died in the custody of the FKSPCA and a
second one had to be euthanized for medical reasons dozens of pages of medical documentation
were included in Petitioner's discovery and provided to her via e-mail. Most of the reptiles had
carried pet health insurance policies allowing them free veterinary care of which the FKSPCA was
aware (Record pg. 371) and which Petitioner continues to pay to this day in the hope of recovering
them. Had any of them gotten sick or injured and passed away in their custody their veterinary
health insurance policies should have been billed (which they were not) and extensive records
would exist which would have been easy to provide to Petitioner. With the exception of one
individual the pet iguanas and turtles which Petitioner had in most cases owned for more than 20
years had been healthy animals with decades of projected life expectancy ahead of them. On
2/21/18 FWC Officer Kyle Plussa had stated under oath that the iguanas were at that time “located
at an appropriate facility”, meaning that they were alive at that time, years after the seizure. The

12

inanimate property (which included marine rated custom caging and UV stable ponds) sought by
Petitioner could certainly not be expected to have deteriorated to the point of non existence within 2
years.
Petitioner had consistently throughout the case personally and through her attorney begged
and pleaded with the attorney for the FKSPCA for the safe return of her animals, explaining how
they meant everything to her as members of her family for which she had paid tens of thousands of
dollars in veterinary care, housing, and sustenance over the years, providing care information,
offering to pay for costs incurred, agreeing to engage in negotiations, and had never once given the
impression that she was no longer interested in their welfare or ownership (Record pg. 356, 366 379). Petitioner's husband Mr. Geisel who was found to be incompetent to stand trial in his case
2016-CF-108-AM on 1/26/2017 due to his disability (Record pg. 613), was only involved in any
negotiations through Petitioner.
On 8/2/2018 Petitioner filed a demand with Attorney Limbert-Barrows (Attorney for the
FKSPCA) for the return of the missing animals (APPENDIX M). On 8/7/18 Petitioner filed a
request with the Florida Fish and Wildlife Commission Division of Law Enforcement for the return
of the missing animals pursuant to the procedure on the FWC Property Receipt (APPENDIX L).
Petitioner therefore exhausted all other available remedies by filing timely demands for the return of
the evidence with the FWC which seized the animals and the FKSPCA to whom the evidence was
transferred to be held in custodia legis, both of which were ignored. Petitioner then filed a Motion
for the Return of all Evidence on 8/16/2018 in case 2016-MM-438-AM requesting the return of her
remaining property (Record pg. 547 - 552). The hearing took place on 10/15/2018 when the
Honorable Judge Becker denied / declined to hear the motion, citing her apparently sincere belief
that she did no longer had jurisdiction to do so subsequent to a nolle prosequi having been entered,
and suggesting that this should be a civil matter. However, during the hearing Assistant State
Attorney Christina Cory stated clearly that the State no longer has any need for or claim over the

13

remaining animals as evidence in either Petitioner's case or her husband's case 2016-CF-108-AM
(Appendix E). On 10/16/2018 Petitioner attempted to locate the 2 missing dogs through their
microchip registrations. She found Chrissy in a foster dog hospice program and Dozer placed with
an unknown individual who is according to HomeAgain, the microchip provider, rejecting
Petitioner's attempts to obtain contact information (Record pg. 222). Only the involvement of law
enforcement or a court order would be considered sufficient by HomeAgain to release that
information.
On 11/13/2018 Petitioner filed her first petition for a writ of mandamus pursuant to Florida
Rules of Appellate Procedure 9.030(c)(3), 9.100(e) and 9.100(f)(2) in the Circuit Court of the
Sixteenth Judicial Circuit in and for Monroe County, Florida directing Respondent, the Honorable
Judge Ruth Becker-Painter, Judge of the County Court of the Sixteenth Judicial Circuit in and for
Monroe County, Florida to exercise jurisdiction and order the return of Petitioner's seized personal
property subsequent to the nolle prosequi in case 2016-MM-438-AM or to entertain motion for
same (Record pg. 9). That petition was dismissed without prejudice on 12/5/2018 (Record pg. 87).
Petitioner filed an amended petition on 1/3/2019 along with a second amended petition due to a
formatting error discovered during the filing process (Record pg. 89 - 300), arguing that the lower
court in fact did have jurisdiction to hear her motion and seeking the following relief, pertaining
directly to the questions Petitioner brings before this court:
“Petitioner seeks this Honorable Court's writ of mandamus directing the Respondent, the
Honorable Judge Becker to entertain her motion for the return of all evidence or preferably
to order the return of all the animals seized by FWC in this case as per the property receipts
as well as all the remaining evidence which the State admits has no longer any evidentiary
value. Specifically the order should state that Petitioner is the legal owner of dogs Chrissy
(microchip number HomeAgain 4A286C576D) and Dozer (microchip number HomeAgain
985112007130225), the iguanas known as per their veterinary records as Iggy, Lenny,
Laveme, Kugel, Quasimodo, Curly, Spike, and Baby (documented in evidence records as
iguanas #1 - 8), turtles Tabby, Lily, and Myrtle (documented in evidence records as turtles #
1,4, and 5), and cat Emily (documented in evidence records as “Feline Grey Tabby Kynast
male”), and direct the FWC as the agency legally responsible for the property to determine
from its evidence custodian the FKSPCA (and / or by any other reasonable means necessary)
the present location of the evidence it is holding in custodia legis, whether it is at one of the
FKSPCA facilities, or currently temporarily transferred to any of its agents (including but
14

not limited to fosters, veterinarians, facilities, and rescues) to ensure its safety (if still alive
in case of the animals) and to deliver it to Petitioner at no cost to Petitioner. In cases where
the animals are alleged to be deceased, a proper investigation needs to be initiated into the
veracity of that claim to determine whether any of the animals are in fact still alive and the
evidence custodian or its agents are merely refusing to return them. If they are in fact
deceased as proven by reliable veterinary records those records need to be provided to
Petitioner. Petitioner has every reason to doubt the veracity of any statements made by the
FKSPCA especially in the person of ACO Smith since he throughout this case provided
statements under oath which were unsupported or shown to be outright falsehoods by videos
taken on scene and veterinary examination and since it has throughout the case been the
stated aim of the FKSPCA and FWC Officer Kyle Plussa (as documented on video and in
writing) to deprive her permanently of her animals.” (Record pg. 238)
Petitioner made reference to Federal Rule of Criminal Procedure 41(e) in her argument:
"It is not, of course, a prerequisite to a motion for return of property that a criminal
prosecution be brought following the seizure of the property. Harvey v. Drake, 40 So. 2d 214
(Fla. 1949); Golding v. Director, Public Safety Department, Metropolitan Dade County, 400
So. 2d 990 (Fla. 3d DCA 1981). However, once a criminal prosecution is instituted, the court
in which that prosecution is pending acquires jurisdiction over that property to hear and
determine all questions concerning its ownership if the property seized has an evidentiary
purpose. Garmire v. Lake, 265 So. 2d 2 (Fla. 1972). If, on the other hand, the property seized
is not held as evidence or no criminal prosecution ensues, then the court to which the
warrant and property are returned obtains jurisdiction to order its return. Harvey v. Drake, 40
So. 2d 214 (Fla. 1949); Golding v. Director, supra. [...] We hold further that the termination
of the criminal case, here by the entry of a nolle prosequi, did not divest the trial court of
jurisdiction to entertain Sawyer's motion for return of property. While concededly neither
Section 933.14, Florida Statutes (1979), nor any other statute, confers jurisdiction on the
court before which the criminal proceedings are held to return property seized after the
termination of the criminal case, that power inheres in the court's jurisdiction over the
criminal case. Garmire v. Lake, supra', Estevez v. Gordon, 386 So. 2d 43 (Fla.3d DCA 1980).
If criminal courts have the inherent power in the absence of a statute to provide for the
recovery of evidentiary items held by them, as the Supreme Court said in Garmire, then it is
implicit that that power, to be effective, must exist after the termination of the criminal case
when the items are no longer needed as evidence. See Jenkins v. State, 41 So. 2d 554 (Fla.
1949). See also State ex rel. Gerstein v. Durant, 348 So. 2d 405 (Fla.3d DCA 1977); Carlisle
v. State ex rel. Smith, 319 So. 2d 624 (Fla. 4th DCA 1975). Cf United States v. Wright, 610
F.2d 930 (D.C. Cir.1979); United States v. Palmer, 565 F.2d 1063 (9th Cir.1977); United
States v. LaFatch, 565 F.2d 81 (6th Cir.1977), cert, denied, 435 U.S. 971, 98 S. Ct. 1611, 56
L. Ed. 2d 62 (1978); United States v. Wilson, 540 F.2d 1100 (D.C. Cir.1976) (all holding that
under Federal Rule of Criminal Procedure 41(e), the Federal District Court does not lose
jurisdiction to return seized property after termination of the criminal case). [...] It should be
obvious that a person who asserts that the State is unlawfully holding his property would be
deprived of due process if the law did not afford him a prompt hearing on his assertion. [...]
Accordingly, we grant the petition for writ of mandamus. We deem it unnecessary to issue
the writ. We direct the judge now presiding in the respondent's stead in the Criminal
Division of the Circuit Court, in and for Dade County, Florida, to exercise jurisdiction over
Sawyer's motion for return of property." Sawyer v. Gable, 400 So. 2d 992 (Fla. 3d DCA
1981) (Record pg. 240-241)

15

“Sawyer v. Gable, supra discusses in detail the interplay under Federal Rule of Criminal
Procedure 41(e) of return of property and suppression of evidence due to illegal search and
seizure, stating uneqivocally that once a seizure is found to be illegal (as in this case), the
Defendant is entitled to the lawful possession of the property.
“Rule 41 (e) provides: "Motion for Return of Property. A person aggrieved by an unlawful
search and seizure may move the district court for the district in which the property was
seized for the return of the property on the ground that he is entitled to lawful possession of
the property which was illegally seized. The judge shall receive evidence on any issue of
fact necessary to the decision of the motion. If the motion is granted the property shall be
restored and it shall not be admissible in evidence at any hearing or trial. If a motion for
return of property is made or comes on for hearing in the district of trial after an indictment
or information is filed, it shall be treated also as a motion to suppress under Rule 12."
Sawyer v. Gable, 400 So. 2d 992 (Fla. 3d DCA 1981)” (Record pg. 243)
The State in this matter filed a response on 2/7/2019, conceding that the County Court Judge, the
Honorable Judge Becker did in fact have jurisdiction to act on Petitioner's Motion for the Return of
all Evidence, but argued that the petition was moot since the FKSPCA had allegedly never seized
the dogs but had merely taken them for safekeeping and then unsuccessfully attempted to return
them to Petitioner's husband and failing to make contact with him had subsequently adopted them
out. The State provided no evidence thereof or as to the fate of the other missing animals and
property. (Record pg. 305 -316)
On 2/12/2019 the Circuit Court issued an Order Denying Amended Petition for Writ of Mandamus
as moot (pg. 317). This order was never served on or sent to Petitioner and only came to Petitioner's
attention during a routine check of the court file. On 2/20/2019 Petitioner filed a Motion to
Reconsider (pg. 318 - 323), referring to Fla. R. App. P. 9.100 (k) which states: Reply. Within 20
days thereafter or such other time set by the court, the Appellant may serve a reply, which shall not
exceed 15 pages in length, and supplemental appendix. Petitioner stated that she did not believe
that the Circuit Court would be able to make a fair decision without being made aware of the facts
and supplementary evidence contained in the reply and that the untimely dismissal of the petition
would constitute a violation of her due process rights. (Record pg. 318 - 323). Petitioner
subsequently filed her reply on 2/26/2019 (pg. 324 - 343) Petitioner showed that the claims made in
regards to the status of the dogs were false as shown by case records and reiterated again that she is

16

entitled to the return of her property as stated in the questions presented to this court:
“Regardless, there is a nolle prosequi in the case, the civil action action has been voluntarily
dismissed with the admission that it was moot, and Petitioner is entitled to the return of her
property.” (Record pg. 326)
“After receiving only 2 turtles, 4 cats, and dog Slinky, Petitioner notified Attorney LimbertBarrows, the FWC, and the court that the FKSPCA had failed to comply. While Petitioner
obviously greatly appreciates the directive of ADA Cory, it is clearly Respondent's
responsibility to ensure with the authority of the court that an agent of the court complies
with what amounts to a legal court order. It has been apparent throughout this case that
Respondent has expected the FKSPCA and FWC to act according to law. However, several
instances of perjury by both ACO Smith as well as FWC Officer Plussa should have made it
abundantly clear to Respondent that the FKSPCA continues to display a total disregard for
the truth in this case. As shown above, the story line of the attempt to return the dogs taken
for safe-keeping provided by the FKSPCA to Respondent is completely untrue as per
verifiable evidence. It is the responsibility of Respondent having been notified of the
FKSPCA's failure to comply to bring the weight of the court to bear on the issue and hold
the offending parties in contempt until compliance is achieved.” (Record pg. 338 - 339)
“The sole 'proof provided by Respondent that the animals no longer exist is the fact that the
FKSPCA was ordered to return them but did not. This is merely proof of failure to comply,
and the exact reason why Petitioner seeks the writ, so that the FKSPCA will be forced to
account for those missing animals. Since Respondent clearly does not have any proof
whatsoever that even a single animal ceased to exist, the animals continue to legally be
considered in the custody of the FKSPCA, which remains in contempt of a legal court
order.” (Record pg. 339 -340)
“Respondent has been unable to provide any proof that all the animals and physical property
seized from Petitioner's vessel were either returned to Petitioner or that they at the time of
the disposition of the case had ceased to exist. Petitioner has provided proof that they were
not returned and that it is unlikely that they are dead. Respondent's statement that the dogs
were not seized was shown to be false by documentary evidence. If they were as Respondent
asserts not made part of the case, then the court should have returned them as part of the
proceedings in the criminal case. Petitioner has shown the story of the attempted return of
the dogs by the FKSPCA to be a lie. The truth is that both Petitioner and Mr. Geisel pleaded
for their return and were denied. Consequently this Honorable Court should issue the
requested Writ of Mandamus demanding that all the evidence be returned to Petitioner or
proof that it “ceased to exist” be provided to her so she can find closure and can stop
incurring costs for their insurance policies.” (Record pg. 340)
The reply included with the electronic supplemental appendix (pg. 344 - 400) two video files from
her discovery in the criminal case (one in the original AV viewer format used by Appellee, the
second one originally converted into standard video by Appellee), along with detailed viewing
instructions, which unambiguously showed claims made in the Response, specifically the claim that
the two dogs were taken for safekeeping because no other caretaker was available to have been
17

i

false. Petitioner filed her request for oral argument on 3/4/2019 (Record pg. 401 - 405). On
3/6/2019 the Circuit Court issued an Order Denying Motion to Reconsider without stating the
grounds for that decision (Record pg. 406). On 3/11/2019 Petitioner received a letter from the Clerk
of the Circuit Court returning her video file and electronic supplemental appendix prepared in
accordance with Fla. R. App. P. 9.220 (c) stating that both needed to be printed as photos (pg. 413),
which is obviously impossible. Since a petition for a writ of mandamus is considered an original,
not an appellate proceeding (Fla. R. App. P. 9.030 (c) (3)), Petitioner believes that she was within
her rights to file the videos which were by virtue of the filing brought to the attention of the lower
court.
Appellant filed a Notice of Appeal on 4/3/2019 (Record pg. 407) and additional Directions to the
Clerk on 4/15/2019 (Record pg. 417) along with a Statement of the Judicial Acts to be Reviewed
(Record pg. 435) as required by Fla. R. App. P. 9.200 (a) (2). Petitioner also filed a motion with the
Third District Court of Appeal on 7/2/19 to supplement the record with the video files the circuit
court had refused to accept which was denied. In her initial appeal brief filed on 11/12/19 Petitioner
made the following statements in regards to the questions presented to this court:
“Appellant files this appeal to continue her quest to regain her property consisting
specifically of a number of beloved pets, specifically 3 pet turtles, 7 pet iguanas, 1 cat, and
one registered service dog as well as a number of cages, carriers, and accessories, through
the issuance of a writ of mandamus.” (Initial Appeal Brief pg. 12)
“Appellant argues that the Disposition of Case and Evidence Memorandum (pg. 316)
presented by Appellee as evidence of the resolution of the case has failed to secure the return
of a number of animals and any of the inanimate property the FKSPCA has per their own
admission been holding in custodia legis to Appellant. This may have been due to the fact
that the Disposition of Case and Evidence Memorandum is unnecessarily vague by referring
alternately to animals and property “currently in the custody/control of the FKSPCA” and
“@ FKSPCA”. This is a significant legal difference which has to be clarified by the court,
especially in light of the fact that the majority of Appellant's animals were in fact not
returned while she is entitled to their return subsequent to their suppression as evidence and
the nolle prosequi having been entered in her case.” (Initial Appeal Brief pg. 15)
“That the animals and inanimate property were subject of a motion to suppress (pg. 112)
which was granted (pg. 119), which legally requires the restoration of the property to the
owner.
“Rule 41 (e) provides: "Motion for Return of Property. A person aggrieved by an unlawful
18

search and seizure may move the district court for the district in which the property was
seized for the return of the property on the ground that he is entitled to lawful possession of
the property which was illegally seized. The judge shall receive evidence on any issue of
fact necessary to the decision of the motion. If the motion is granted the property shall be
restored and it shall not be admissible in evidence at any hearing or trial. If a motion for
return of property is made or comes on for hearing in the district of trial after an indictment
or information is filed, it shall be treated also as a motion to suppress under Rule 12."
Sawyer v. Gable, 400 So. 2d 992 (Fla. 3d DCA 1981)” (Initial Appeal Brief pg. 18)
“That the entry of a nolle prosequi legally entitles the Defendant to the return of her property
and that it is the responsibility of the trial court to ensure its return. Garmire v. Red Lake,
265 So. 2d 2 (Fla. 1972), Coon v. State, 585 So. 2d 1079 (Fla. 1st DCA 1991), Helmy v.
Swigert, 662 So. 2d 395 (Fla. 5th DCA 1995).” (Initial Appeal Brief pg. 19)
“Appellee in their Response then provided a copy of the Disposition of Case and Evidence
Memorandum (pg. 316), a directive to the evidence custodian which specifies to “release all
animals that were seized from the Defendant's vessel that are currently in the custody/control
of the FKSPCA back to Ms. Kynast.” and “release animals + any items (cages / watering
dishes / etc.) currently being held @ FKSPCA Hold all items being held @ FWC”. The
FKSPCA had listed all 22 animals (9 iguanas, 5 cats, 5 turtles, and 3 dogs) in their civil
complaint as “seized animals” (pg. 573). It then refers to those animals as “Respondents’
animals, of which Petitioner has had custody” in the NVD not exempting any. In fact it
further specifies the animals as “listed as evidence in the misdemeanor case”. FWC property
receipts list all 22 animals and inanimate property “Transferred to Animal Control. Animal
Control Officer (Custodian)” (pg. 185 - 189). The pertinent pages of the Incident Summary
Report list all 22 animals as “Property: Seized Species” and “In Custody of Monroe County
Animal Control (FKSPCA)” and all inanimate property as “Property: Seized Article” and
“Currently in Custody of Monroe County Animal Control” (pg. 352 - 355). In the NVD the
FKSPCA specifies that “Custody and Disposition of the animals will be in accordance with
the resolution and disposition of Case MM-M-16-438.” As such the Disposition of Case and
Evidence Memorandum should apply to all 22 animals and inanimate property regardless of
their current location (pg. 316). That order is however unnecessarily vague by asking for the
animals “currently in the custody / control of the FKSPCA” to be returned but then stating
“release animals and any items (cages / watering dishes / etc. currently held @ FKSPCA
Hold all items being held @FWC” instead of “by the FKSPCA / FWC”. At is a physical
location which if read as an restriction to “animals” (which is unclear since no punctuation is
used) would theoretically exempt animals at that point in time being at the veterinarian,
foster homes, or other facilities, and any property stored off site. As such the memorandum
would be in conflict with the law which entitles Appellant to the return of all of her property
subsequent to the suppression of the evidence and the nolle prosequi. It would also be in
conflict with the belief of the Honorable Judge Becker that “everything had been returned”
subsequent to the nolle prosequi (pg. 564).” (Initial Appeal Brief pg. 19-21)
“Appellant wants her remaining animals and inanimate items returned to her and she seeks
an order from the Court to achieve this. Since the case was terminated by the nolle prosequi
it is her legal right to do so. “ (Initial Appeal Brief pg. 25)
“As such she was willfully denied the right to be heard. “The Due Process Clause of the
Fourteenth Amendment requires that deprivation of life, liberty, or property be preceded by a
notice and opportunity for hearing appropriate to the nature of the case. Armstrong v. Manzo,
19

380 U.S. 545, 85 S.Ct. 1187, 14 L.Ed.2d 62 (1965).” County ofPasco v. Riehl, 635 So. 2d
17 (Fla. 1994) It is obvious that by declaring the Petition as moot, Appellant was
permanently deprived of her animals / property without being afforded the ability to be
heard in regards to Appellee's assertions regarding that property.” (Initial Appeal Brief pg.
48 - 49)
“The case is not moot and this Court should remand this case to the Circuit Court directing it
to issue the writ of mandamus compelling Respondent, the Honorable Judge Ruth BeckerPainter, Judge of the County Court of the 16th Judicial Circuit in and for Monroe County,
Florida to exercise jurisdiction and order the return of all of Appellant's seized personal
property at no cost to Appellant, or if the lower court is procedurally unable to do so direct
Respondent, the Honorable Judge Becker to entertain Appellant's motion for same, since the
Disposition of Case and Evidence Memorandum is too vague or limited in scope to affect
the return of all the seized animals and property or is being ignored by the FWC / FKSPCA.
A Writ of Mandamus unlike apparently the Disposition of Case and Evidence Memorandum
would bring the power of the court to bear on the issue, allowing the FWC / FKSPCA to be
sanctioned for failure to comply. As such it should result in the recovery of the animals and
property or at least reliable answers regarding their fate. If they are alleged to be deceased
this needs to be proven by reliable veterinary records due to the fact that the FKSPCA
continues to lie in this case, and those records need to be provided to Appellant so she can
find closure and recover the money spent on their insurance policies since their death. “
(Initial Appeal Brief pg. 50)
On 6/2/20 the State filed its answer brief. Of significance is the State's admission that “On October
15, 2018, a hearing was held to address Appellant's Motion for Return of Property. The State did not
objection to the return of evidence or property related to the lower court proceeding.” (Answer pg.
5) The State once again remained silent regarding the fate of the missing iguanas, turtles, cat, and
inanimate property, except for claiming that they were ordered to be returned to her by the trial
court. But now contrary to its prior assertion in the Response to the Petition the State claimed that
the dogs were in fact seized but retained as evidence in the parallel case the State had filed against
Petitioner's husband Raymond Geisel No. 16-CF-108-A-M on the same day as Petitioner's criminal
case, alleging the same charges in addition to charges of threatening officers in an attempt to
reclaim the animals. (Answer pg. 9 -10) No explanation was given for the discrepancy with the
prior assertion that the dogs were never seized or why in that case the State did as stated not
objection to the return of evidence when the Motion for Return of Property came before the lower
court, especially considering that the same prosecutor was responsible for both cases and the
Disposition of Case and Evidence Memorandum (Record pg. 316) had specifically made reference
20

to Mr. Geisel's case. By the time the State filed the answer all the charges relating to the animals
and seized evidence had also been no actioned in Mr. Geisel's case. The State also now claimed that
the recovery of the dogs should be a civil, not a criminal matter. On 7/31/20 Petitioner filed her
reply, stating again that the two dogs were not the entire property sought and that the directive for
the return of property was insufficient to achieve that return:
“Appellee incorrectly claims that “the trial court had already ordered all of the property that
was seized in connection with Appellant's case to be returned.” (Answer pg. 9) The directive
for the return of the animals was not a court order. As Appellee states on page 4-5 of the
answer brief the State had directed the return of some of the property in a Disposition of
Case and Evidence Memorandum (pg. 316). That is not the order of the Court Appellant
seeks.” (Reply Brief pg. 2)
“Unlike a court order the Disposition of Case and Evidence Memorandum, the directive by
the State to release the property was not subject to further court proceedings as well as
unenforceable. Had it been a court order a motion to clarify could have been filed by
Appellant to remove the contradictory language in regards to which animals were in fact
subject to it and to bring it in line with the Notice of Voluntary Dismissal for 2016-CC-79-M
(hereafter referred to as “NVD”) which specifies that all animals are subject to the resolution
of the case (pg. 594) as well as case law that the entry of a nolle prosequi entitles the
Defendant to the return of her property and that it is the responsibility of the trial court to
ensure its return. Garmire v. Red Lake, 265 So. 2d 2 (Fla. 1972), Coon v. State, 585 So. 2d
1079 (Fla. 1st DCA 1991), Helmy v. Swigert, 662 So. 2d 395 (Fla. 5th DCA 1995). Appellant
through a motion notified the lower court of the failure of the FWC to comply (pg. 547).
Appellee states: “On October 15, 2018, a hearing was held to address Appellant's Motion for
Return of Property. The State did not objection to the return of evidence or property related
to the lower court proceeding.” (Answer pg. 5) Even though the State did not object, they
did not offer to facilitate the return in any way. The Motion Court Minutes (pg. 564), show
that the Court having been notified that the animals had not been returned felt that it was
unable to intervene, a position which the State concedes in its Response was incorrect, (pg.
311) It is for that reason that Appellant seeks the writ of Mandamus so that an enforceable
court order will be issued for the return of her animals and that if the failure to comply on
the part of the FWC and FKSPCA persists contempt proceeding can be initiated to force
compliance.” (Reply Brief pg. 4-6)
“Appellee makes extensive argument as to why the trial court could have retained evidence.
The trial court however did not decide to retain evidence, but denied the motion because it
felt that it did not retain jurisdiction after the case had been nolprossed. (pg. 564), which
Appellee admits was in error, not for any other reason (property not held in custodia legis,
property retained for use in Mr. Geisel's case, etc.). “Respondent does not dispute that the
lower court has jurisdiction over the animals seized from the vessel which were the subject
of a criminal case.” (pg. 311) No decision of the court in regards to the evidence was ever
made beyond the order granting of the motion to suppress (pg. 537), which had requested
that “all seized items - physical property and animals - returned immediately.” (pg. 468)
There was no evidentiary hearing. Appellant was therefore deprived of due process in the
matter. “ (Reply Brief pg. 12)
21

Petitioner also showed why the assertion by the State that any part of the proceeding should be a
civil matter was incorrect which pertains directly to the questions she asks this court to review:
“The record demonstrates that all animals and physical property in question were seized by
the FWC and placed in the custody of the FKSPCA. The two forms of evidence listings in
that case are the FWC property receipts which list all 22 animals and property equally as
“Type of Seizure: Evidence, Type of Case: State Misdemeanor, Purpose: Trial” and
“Transferred to Animal Control. Animal Control Officer (Custodian)” (pg. 185- 189). The
pertinent pages of the Incident Summary Report list all 22 animals as “Property: Seized
Species” and “In Custody of Monroe County Animal Control (FKSPCA)” and all inanimate
property as “Property: Seized Article” and “Currently in Custody of Monroe County Animal
Control” (pg. 352 - 355) In the Response to the Petition Appellee states in regard to the
animals except for the two dogs “The animals were seized as evidence and after being
treated at Dr. Mader's office were transferred to the FKSPCA as FWC did not have adequate
facilities to accept live animals.” (pg. 309) The case videos (pg. 347 - 349) also clearly
show the taking of the two dogs having been a law enforcement seizure. Appellee concedes
in the Answer Brief “Property is held in custodia legis when it is obtained for use as
evidence in the criminal proceeding.” (Answer pg. 8) The FKSPCA admits in the NVD to
having had custody of all the animals (the animals listed as evidence in Appellant's case) but
no authority to dispose of them since they were evidence in Appellant's case. (pg. 596)
Helmy v. Swigert, 662 So. 2d 395 (Fla. 5th DCA 1995) clearly speaks to the issue of
custodia legis in the case of a law enforcement seizure with a transfer to the FKSPCA as
evidence custodian. “The possession of the sheriffs bailee or custodian, is the possession of
the sheriff; and so the property is still in custodia legis.'’ Adams v. Burns, 172 So. 75 (Fla.
1936) There was no court action that ever removed the animals from the custody of the
FKSPCA / court. The animals were placed in custodia legis and therefore remain under the
jurisdiction of the court. A civil case cannot intrude on a criminal case.
“We do not believe the civil courts should be permitted, as here attempted, to cross over and
intrude in criminal matters pending within the jurisdiction of the criminal courts. It would
seriously conflict with and hamper criminal processes if evidence or contraband seized for
criminal trials or purposes could be made the subject of recovery proceedings in the civil
courts through procedures bypassing the criminal courts.” Garmire v. Red Lake, 265 So. 2d
2 (Fla. 1972)
“Mandamus is the proper procedural vehicle to compel a trial court to order the return of
property which was seized from a defendant after it is no longer needed as evidence in a
case. It is unnecessary to commence a separate civil suit and in the event the court refuses to
act the proper remedy is a petition for writ of mandamus” Helmy v. Swigert, 662 So. 2d 395
(Fla. 5th DCA 1995) (internal citations omitted)
“A separate action for replevin or conversion is not required.” Coon v. State, 585 So. 2d
1079 (Fla. 1st DCA 1991) The return of evidence in a criminal case rests with the trial court.
The chain of custody section of the FWC property receipts clearly shows for every animal
and piece of physical property that it was transferred by law enforcement into the custody of
the FKSPCA but was never transferred out. It therefore remains in custodia legis in the
custody of the FKSPCA to this date which makes it an issue of the criminal court, not a civil
issue. Property held in custodia legis can only be withdrawn by a court order. Adams v.
Burns, 172 So. 75 (Fla. 1936) Appellee never made any claim that the animals or property
sought no longer remain in the law enforcement agency's possession with the exception of
the legally impossible hearsay story about the two dogs. (Initial Brief pg. 23-25, 33-39)”
22

(Reply Brief pg. 6-8)
“Brown v. State, 613 So. 2d 569 (Fla. 2d 1993) which states: “When a trial court has
assumed jurisdiction over criminal charges, it is thereafter vested with an inherent power to
assist the true owner in the recovery of property held in custodia legis. This power has been
extended to situations such as that depicted in the present case, viz., where property has been
seized from a criminal suspect. A separate suit for replevin or conversion is not necessary.
[...] Upon receipt of a facially sufficient motion the trial court is obligated to exercise this
inherent jurisdiction, and relief by mandamus may be available in the event it does not.”
Brown v. State, 613 So. 2d 569 (Fla. 2d 1993) (internal citations omitted) It states “we agree
that Brown is entitled to a hearing”, directs “further inquiry into the whereabouts of the
items allegedly taken” (Reply Brief pg. 9)
“A court has the inherent power to direct the return of property seized from a criminal
defendant, if it is no longer needed as evidence against him. Garmire v. Red Lake, 265 So.
2d 2 (Fla. 1972); Estevez v. Gordon, 386 So. 2d 43 (Fla. 3D DCA 1980). Except where
property taken pursuant to a warrant is concerned, in which instance section 933.14, Florida
Statutes (1987), governs, there are no established methods for exercising this inherent
power. Estevez. Nonetheless, the power continues to exist after the underlying criminal case
has terminated. Sawyer v. Gable, 400 So. 2d 992 (Fla. 3d DCA 1981). A separate civil suit is
not required. In the event the court refuses to act, the proper remedy is a petition for writ of
mandamus. Estevez” Moore v. State, 533 So. 2d 924 (Fla. 2d DCA 1988)
“Although the statutes provide procedures for the return of certain evidence taken under a
search warrant, see Section 933.14, Florida Statutes (1989), and for the return of money or a
motor vehicle taken under circumstances constituting larceny, see Section 812.061, Florida
statutes (1989), the statutes do not provide a procedure for return of property seized from a
criminal defendant without a warrant. Moore v. State, 533 So. 2d 2, 5 (Fla. 1972); Estevez v.
Gordon, 386 So. 2d 43, 45 (Fla. 3D DCA 1980). [...] In any event, appellant clearly asserted
that the state is unlawfully holding his property; therefore, he would be deprived of due
process of law if he were not afforded a prompt hearing on this matter.14 Coon v. State, 585
So. 2d 1079 (Fla. 1st DCA 1991) Appellant was never granted an evidentiary hearing before
her timely filed motion for return of property was denied. (Reply Brief pg. 10)
On 9/16/20 the District Court of the State of Florida, Third District issued a Per Curiam Affirmance
in the case. Petitioner filed a motion for rehearing, certification, and written opinion and/or
rehearing en banc where she made the arguments shown as reasons for granting this petition on
10/1/20. Rehearing was denied on 10/28/20. Meanwhile Petitioner recovered dog Chrissy in a
private legal transaction from a third party finding that she had been neither adopted out nor
retained as evidence in Mr. Geisel's case and proving conclusively that the State and FKSPCA had
perjured themselves in regards to the status of the evidence sought. Petitioner therefore now seeks
the assistance of the Supreme Court of the United States to recover the remainder of the missing
animals and physical items.
23

REASONS FOR GRANTING THE PETITION

Here comes Petitioner Susanne Stephanie Nikola Kynast and states the following: Contrary
to the protections guaranteed in the 4th, 5th, and 14th Amendment of the Constitution of the United
States, Petitioner has been denied the right to recover her property taken without a warrant in a
search and seizure found to have been illegal by the lower court and being held in custodia legis
subsequent to a nolle prosequi having been entered in her case.
1. Petitioner respectfully argues that the issue of whether a defendant in a case terminated by a
nolle prosequi should be granted a hearing in regards to recovering property seized without
a warrant in an illegal search and seizure is one of enormous national importance. Denying
an individual aggrieved by a search and seizure found to have been illegal by a court of law
the right to regain said property and to even be heard in regards to that property tramples on
the protections guaranteed by the constitution to all persons both in regards to enjoyment of
property and due process. The principle that a person is innocent of a crime unless proven
guilty is a core tenet of the law. Petitioner had her property removed from her possession by
law enforcement officers in an unlawful search and seizure. Since Petitioner's case ended in
a nolle prosequi, Petitioner was never found guilty of any crime. Consequently no entity has
the right to retain Petitioner's lawfully acquired and owned property, and the retention of the
property by the evidence custodian while denying Petitioner the right to be heard in regards
to the return of that property denies Petitioner the basic right to security and possession of
property. If any Defendant, subsequent to the entry of a nolle prosequi in a case is not
afforded a means to recover property taken without a warrant, especially if that property was
taken during an illegal search and seizure, it leaves the system open to the discretion of law
enforcement officers who could through their actions permanently deprive an individual of
their property even if the individual is subsequently cleared of all charges in a court of law.
Because it removes the protections of the legal process from what may be spur of the
24

moment decisions made in the field by law enforcement officers eager to collect the
evidence to have an arrest lead to a successful prosecution, it fails to afford individuals the
fundamental right of due process. This leaves the system open to abuse by law enforcement
officers and prosecutors who as in this case through the frivolous arrest and prosecution of
Petitioner have so far succeeded in depriving her of her most precious belongings. In the
most basic terms it means that if this case is allowed to stand, a law enforcement officer can
enter the home of any individual on a personal whim, may it be dislike, jealousy, or a desire
for that individual's possessions, remove the property from the home, place it with a
evidence custodian, and simply never return it. This is precisely the due process violation
which the constitution of this country seeks to prevent. It is directly contrary to the
constitutional guarantee that individuals shall not be deprived of their property without due
process of law, and that they shall be secure in their houses and effects. In the event that the
State takes property from an individual and the individual is not found guilty in a court of
law, said property has to be restored to the aggrieved individual without undue burden and a
proper means has to be provided in the courts for the individual to achieve such restoration
or the individual by virtue of having lost their property will have been punished for a crime
they did not commit, and as such this would constitute arbitrary punishment without
conviction and result in catastrophic losses to innocent individuals. This is precisely the due
process violation which the the 4th, 5th and 14th Amendments of the Constitution seek to
prevent. Requiring an individual as happened in this case to pay thousands of dollars for the
care of animals which were illegally seized and subsequently not returning the majority the
animals while not allowing a hearing in the matter is a due process violation of huge
consequence. Due process is the foundation of our legal system which separates us from
countries where property can be taken from individuals and distributed among those who
desire to possess it without recourse, from places and times where officers in trucks show up

25

outside of homes and empty them of valuables while the owners watch helplessly. The
difference between a couple of pets and their accessories and a million dollar art collection
taken under a totalitarian regime is in numbers only. Petitioner has since the seizure never
been able to watch law enforcement drive by her home without wondering what they might
take from her again and never return.
2. In the State of Florida there is no clear method for a defendant to recover their property once
their case is terminated if the property was taken without a warrant. The Florida District
Courts of Appeal while consistently affirming the aggrieved party's right to a prompt hearing
have in previous cases pointed out the lack of statutory clarity in those circumstances:
“A court has the inherent power to direct the return of property seized from a criminal
defendant, if it is no longer needed as evidence against him. Garmire v. Red Lake, 265
So. 2d 2 (Fla. 1972); Estevez v. Gordon, 386 So. 2d 43 (Fla. 3D DCA 1980). Except
where property taken pursuant to a warrant is concerned, in which instance section
933.14, Florida Statutes (1987), governs, there are no established methods for exercising
this inherent power. Estevez. Nonetheless, the power continues to exist after the
underlying criminal case has terminated. Sawyer v. Gable, 400 So. 2d 992 (Fla. 3d DCA
1981). A separate civil suit is not required. In the event the court refuses to act, the
proper remedy is a petition for writ of mandamus. Estevez” Moore v. State, 533 So. 2d
924 (Fla. 2d DCA 1988)
“Although the statutes provide procedures for the return of certain evidence taken under
a search warrant, see Section 933.14, Florida Statutes (1989), and for the return of
money or a motor vehicle taken under circumstances constituting larceny, see Section
812.061, Florida statutes (1989), the statutes do not provide a procedure for return of
property seized from a criminal defendant without a warrant. Moore v. State, 533 So. 2d
2, 5 (Fla. 1972); Estevez v. Gordon, 386 So. 2d 43, 45 (Fla. 3D DCA 1980).“ Coon v.
State, 585 So. 2d 1079 (Fla. 1st DCA 1991)
“ While we agree that Brown is entitled to a hearing, again, the published case law is not
abundant regarding the extent of such a hearing.” Brown v. State, 613 So. 2d 569 (Fla. 2d
DCA 1993) (internal citations omitted)
“there is a need for statutes, rules, and forms to facilitate the process of returning
personal property to defendants in criminal cases once the cases have been resolved.”
Almeda v. State, 959 So. 2d 806, 808 (Fla. 2d DCA 2007)
This results in the unconstitutional situation that defendants as in this case are denied the
opportunity to recover their property subsequent to a successful motion to suppress and a
nolle prosequi. Petitioner unsuccessfully attempted every legal remedy available to her: a
26

timely motions for the return of the evidence, timely demands to the evidence custodian, a
petition for a writ of mandamus, and the subsequent appeal.
3. Even though there is is a lack of statutory clarity in regards to the method of achieving the
return of evidence in the State of Florida, the courts there have consistently affirmed that a
defendant has the absolute right to a hearing in those cases. The Third District Court of
Appeal in fact issued an opinion in a prior case which is in direct conflict with their per
curiam affirmance which denies Petitioner the right to a hearing in her case. In Sawyer v.
Gable, 400 So. 2d 992 (Fla. 3d DCA 1981) the court clearly states on the same issue “It
should be obvious that a person who asserts that the State is unlawfully holding his property
would be deprived of due process if the law did not afford him a prompt hearing on his
assertion.” Sawyer v. Gable, 400 So. 2d 992 (Fla. 3d DCA 1981) The court states in detail:
"Implicit, however, in the authority given to the court to order the property's return is the
right of the person from whom it was seized to move for its return. Harvey v. Drake, 40
So. 2d 214 (Fla. 1949) It is not, of course, a prerequisite to a motion for return of
property that a criminal prosecution be brought following the seizure of the property.
Harvey v. Drake, 40 So. 2d 214 (Fla. 1949); Golding v. Director, Public Safety
Department, Metropolitan Dade County, 400 So. 2d 990 (Fla. 3d DCA 1981). However,
once a criminal prosecution is instituted, the court in which that prosecution is pending
acquires jurisdiction over that property to hear and determine all questions concerning
its ownership if the property seized has an evidentiary purpose. Garmire v. Lake, 265 So.
2d 2 (Fla. 1972). If, on the other hand, the property seized is not held as evidence or no
criminal prosecution ensues, then the court to which the warrant and property are
returned obtains jurisdiction to order its return. Harvey v. Drake, 40 So. 2d 214 (Fla.
1949); Golding v. Director, supra. [...] We hold further that the termination of the
criminal case, here by the entry of a nolle prosequi, did not divest the trial court of
jurisdiction to entertain Sawyer's motion for return of property. While concededly
neither Section 933.14, Florida Statutes (1979), nor any other statute, confers
jurisdiction on the court before which the criminal proceedings are held to return
property seized after the termination of the criminal case, that power inheres in the
court's jurisdiction over the criminal case. Garmire v. Lake, supra', Estevez v. Gordon,
386 So. 2d 43 (Fla.3d DCA 1980). If criminal courts have the inherent power in the
absence of a statute to provide for the recovery of evidentiary items held by them, as the
Supreme Court said in Garmire, then it is implicit that that power, to be effective, must
exist after the termination of the criminal case when the items are no longer needed as
evidence. See Jenkins v. State, 41 So. 2d 554 (Fla. 1949). See also State ex rel. Gerstein
v. Durant, 348 So. 2d 405 (Fla.3d DCA 1977); Carlisle v. State ex rel. Smith, 319 So. 2d
624 (Fla. 4th DCA 1975). Cf. United States v. Wright, 610 F.2d 930 (D.C. Cir.1979);
United States v. Palmer, 565 F.2d 1063 (9th Cir.1977); United States v. LaFatch, 565
F.2d 81 (6th Cir.1977), cert, denied, 435 U.S. 971, 98 S. Ct. 1611, 56 L. Ed. 2d 62
27

(1978); United States v. Wilson, 540 F.2d 1100 (D.C. Cir.1976) (all holding that under
Federal Rule of Criminal Procedure 41(e), the Federal District Court does not lose
jurisdiction to return seized property after termination of the criminal case). [...] It
should be obvious that a person who asserts that the State is unlawfully holding his
property would be deprived of due process if the law did not afford him a prompt
hearing on his assertion. [...] Accordingly, we grant the petition for writ of mandamus.
We deem it unnecessary to issue the writ. We direct the judge now presiding in the
respondent's stead in the Criminal Division of the Circuit Court, in and for Dade County,
Florida, to exercise jurisdiction over Sawyer's motion for return of property. [...] Rule
41(e) provides: "Motion for Return of Property. A person aggrieved by an unlawful
search and seizure may move the district court for the district in which the property was
seized for the return of the property on the ground that he is entitled to lawful possession
of the property which was illegally seized. The judge shall receive evidence on any issue
of fact necessary to the decision of the motion. If the motion is granted the property shall
be restored and it shall not be admissible in evidence at any hearing or trial. If a motion
for return of property is made or comes on for hearing in the district of trial after an
indictment or information is filed, it shall be treated also as a motion to suppress under
Rule 12.” Sawyer v. Gable, 400 So. 2d 992 (Fla. 3d DCA 1981)
As a matter of fact State in their response cites Sawyer when conceding that the Honorable
Judge Becker has in fact jurisdiction over Petitioner's animals sought in Petitioner's motion
(Record pg. 311). Sawyer is identical to Petitioner's case in regards to the motion to suppress
(even though the case was dismissed prior to the full suppression hearing unlike in
Petitioner's case where the motion to suppress was granted) (Record pg. 537) and the
termination of the case through a nolle prosequi (Record pg. 546). The sole difference
between Sawyer and Petitioner's case appears to be the fact that in Sawyer the property was
taken under a warrant while in Petitioner's case it was not. However in Coon v. State, 585
So. 2d 1079 (Fla. 1st DCA 1991) the First District.Court of Appeal addressed a case where
the property was taken without a warrant by clarifying that there is no difference in regards
to how the property was seized, stating “In any event, appellant clearly asserted that the state
is unlawfully holding his property; therefore, he would be deprived of due process of law if
he were not afforded a prompt hearing on this matter.” Coon v. State, 585 So. 2d 1079 (Fla.
1st DCA 1991)
Besides the Third District Court of Appeal three other Florida District Courts of Appeal also
affirm a defendant's right to a hearing in similar cases. Certainly this case most closely
28

mirrors Helmy v. Swigert, 662 So. 2d 395 (Fla. 5th DCA 1995):
“Samy Helmy and Nadia Helmy petition this court to issue a writ of mandamus directed
to the Honorable William T. Swigert, directing him to respond to their motion by
ordering the return of their personal property, Popeye, a male Pekinese dog. Popeye was
allegedly seized as evidence in a criminal case which was later nolprossed. [...] It
appears to this court that the Helmys have alleged and provided proof in the form of a
transcript and other documents, that Popeye, their dog, was taken and held by the State
as evidence in a criminal prosecution. [...] In this case, the trial court failed to resolve
any factual issue, and simply denied the Helmy's motion. The court should have
addressed the conflicting claims and determined whether Popeye is being held in
custodia legis. If he is, the court should grant the Helmys the relief they seek.
Accordingly we grant the petition for writ of mandamus, and direct that the trial court
hold an evidentiary hearing and make findings of fact resolving the factual disputes
discussed above. These matters should be incorporated in a written order, which will
then be appealable.” Helmy v. Swigert, 662 So. 2d 395 (Fla. 5th DCA 1995)
In fact Petitioner's case mirrors Helmy so closely that Petitioner has great difficulty finding
any differences as it involves property seized as evidence, the property was an animal, the
case was nol prossed, the Helmys filed requests as well as motions for the return of the
animal, and the animal was in the custody of the humane society. The only significant
difference is that in Petitioner's case the FKSPCA has already admitted in a court filing that
Petitioner's animals are being held as evidence (in custodia legis) and that the FKSPCA
consequently had no authority over them (Record pg. 594), while in Helmy that was a
question the court needed to resolve, which should only strengthen Petitioner's case. In
regards to property as in Petitioner's case continuing to be held in custodia legis until
removed by court order, the Florida Supreme Court has clarified that “The possession of the
sheriffs bailee or custodian, is the possession of the sheriff; and so the property is still in
custodia legis." and “Property once placed in custodia legis will remain there, by operation
of law, until it is withdrawn by order of a competent court.” A dams v. Burns, 172 So. 75
(Fla. 1936).
The Second District Court of Appeal also addressed this issue of recovering property held in
custodia legis:
“When a trial court has assumed jurisdiction over criminal charges, it is thereafter vested
29

with an inherent power to assist the true owner in the recovery of property held in
custodia legis. This power has been extended to situations such as that depicted in the
present case, viz., where property has been seized from a criminal suspect. A separate
suit for replevin or conversion is not necessary. [...] Upon receipt of a facially sufficient
motion the trial court is obligated to exercise this inherent jurisdiction, and relief by
mandamus may be available in the event it does not. [...] While we agree that Brown is
entitled to a hearing, again, the published case law is not abundant regarding the extent
of such a hearing.” Brown v. State, 613 So. 2d 569 (Fla. 2d DCA 1993) (internal citations
omitted)
Opinions by the Second and Fifth District Court of Appeal even affirmed the right to an
evidentiary hearing in cases where pro se litigants may have presented facially insufficient
motions and vague descriptions of the property sought:
“The circuit court might have concluded that Mr. Almeda's motion was facially
insufficient because the motion did not include an allegation that the property was not
the fruit of criminal activity. Instead, based on the State Attorney's response, the circuit
court denied the motion on the merits. Alternatively, if the circuit court deemed the
motion’s allegations to be facially sufficient, the circuit court should have either attached
portions of the record that conclusively refuted Mr. Almeda's claim or held an
evidentiary hearing. Unfortunately, the circuit court failed to do either. It may be true
that the requested items are evidentiary in nature and that they “could be admissible” to
establish both the commission of one or more crimes and Mr. Almeda's identity as the
perpetrator. Nevertheless these facts alone - if true - would not establish that the State
Attorney's Office was entitled to retain Mr. Almeda's property. In short there is no
evidentiary support for the circuit court's conclusion that Mr. Almeda is not entitled to
the return of his property. Accordingly, we reverse the circuit court's order, and we
remand for the circuit court to reconsider Mr. Almeda's motion. On remand, the circuit
court should determine whether Mr. Almeda's motion is facially sufficient. If the circuit
court determines that the motion is facially sufficient, it may hold an evidentiary
hearing. If the circuit court again summarily denies Mr. Almeda’s claim, it must attach to
its order those portions of the record that conclusively refute the claim. Conversely, if
the circuit court determines that Mr. Almeda's motion is facially insufficient, it should
identify any deficiencies and grant Mr. Almeda leave to amend his motion within a
reasonable time.” Almeda v. State, 959 So. 2d 806, 808 (Fla. 2d DCA 2007) (internal
citations omitted)
“In this case, appellant, John Forrest Coon, contends that the trial court improperly
denied his motion for return of property. Because we find no basis for the summary
denial of appellant's motion, we reverse and remand for further proceedings. Appellant
alleged in his motion that his residence was searched on April 23 and April 24, 1989,
and that property was seized as a result of those searches without benefit of a warrant.
He stated that the items seized from his house, storage shed, and automobile, and his
father's automobile were not used as evidence in his prosecution or presented as such.
He therefore requested the court to grant a hearing and order the return of the property to
him. [...] Although appellant's description of the property allegedly set forth “tools,
radios, speakers, etc.” is somewhat vague, he alleged the dates of the alleged illegal
seizures April 23 and April 24, 1989. Section 933.12, Florida Statutes (1989), requires
30

the police to attach to the returned search warrant a true inventory of property taken
under that warrant. We know of no reason why a comparable procedure should not exist
in situations where property is seized without a warrant. Consequently, production of
police records should satisfy any uncertainty regarding a proper description of the
property sought. In any event, appellant clearly asserted that the state is unlawfully
holding his property; therefore, he would be deprived of due process of law if he were
not afforded a prompt hearing on this matter.” Coon v. State, 585 So. 2d 1079 (Fla. 1st
DCA 1991)
Petitioner's detailed description of the remaining property sought consisting of 1 cat, 2 dogs,
3 turtles, 7 iguanas, caging, pools, and accessories, with 4 cats, 1 dog, and 2 turtles having
been returned (Record pg. 399) and 2 iguanas having been confirmed deceased is found in
both her motions for the return of her property (Record pg. 540, 547) as well as the
Amended Petition for Writ of Mandamus (Record pg. 224 - 259).
The Florida Supreme also clearly rejected any notion that the criminal courts are not
responsible for the recovery of items held in custodia legis.
“We do not believe the civil courts should be permitted, as here attempted, to cross over
and intrude in criminal matters pending within the jurisdiction of the criminal courts. It
would seriously conflict with and hamper criminal processes if evidence or contraband
seized for criminal trials or purposes could be made the subject of recovery proceedings
in the civil courts through procedures bypassing the criminal courts. This does not mean
that persons claiming money or other things of value held in custodia legis in a criminal
court for evidentiary or other purposes should be without remedy. It simply means that
the criminal courts have inherent jurisdiction on proper application of claimants for such
items and upon due notice to the state and others of interest to determine questions
concerning the ownership as well as the appropriate time to release such items held in
custodia legis by the criminal courts.” ” Garmire v. Red Lake, 265 So. 2d 2 (Fla. 1972)
Therefore per curiam affirmance appears to Petitioner to be in direct conflict with opinions
by the First, Second, Third and Fifth District Courts of Appeal and constrained by opinions
of the Florida Supreme Court in regards to custodia legis and jurisdiction. In fact all the
above cases clearly mandate the precise relief which was denied to Petitioner.
4. Throughout this case the State has successfully argued that Petitioner is not entitled to a
hearing since the case is moot. This was based on the argument that a Disposition of Case
and Evidence Memorandum (Record pg. 316) was issued. However there is a clear and
significant discrepancy between the evidence seized as per the property receipts from the
31

seizure (Appendix L) and the property returned as per the Release for Returned Property /
Evidence form (Appendix M) which needs to be resolved in a court proceeding. An issue is
moot when the controversy has been so fully resolved that a judicial determination can have
no actual effect.” Dehoffv. Imeson, 15 So. 2d 258 (Fla. 1943). Non-compliance of the
custodian with a memorandum or insufficiency of the memorandum which lacked clarity,
and was ambiguous and limited in scope supports instead of negates the need for a court
proceeding.

32

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,
(y .

Date:

(S' ? >

January 25, 2021

33

